Report No. IE-2007-006        September 28, 2007




      Safety and Occupational Health Accountability
                    In DoD Individual
             Performance Evaluation Reports
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
Safety and Occupational Health Accountability In DoD
           Individual Performance Evaluation Reports
                                                                September 28, 2007
Who Should Read This Report and Why?
This report should be read by military and civilian supervisors throughout the
Department of Defense. The report documents observations and
recommendations to improve compliance with the DoD requirement to
include safety and occupational health accountability on individual evaluation
reports.
What Was Identified?
The Under Secretary of Defense for Personnel and Readiness requested this
assessment. As prescribed in DoD Instruction 6055.1, “Safety and
Occupational Health (SOH) Program,” August 19, 1998, “all military (officer
and enlisted) and civilian employees shall be appropriately evaluated on their
SOH duties and responsibilities, and their personnel evaluation systems shall
allow SOH performance to be so evaluated.” To examine compliance with
this provision, the assessment team reviewed applicable policy and surveyed
the Department’s military and civilian senior leaders.
DoD policy incorporates the requirements of the Code of Federal Regulations,
Title 29, Part 1960.11. Military and civilian personnel management systems
also reference the requirements. Performance management system policy is
sufficient.
However, implementation is inadequate based on survey data. The overall
response rate for the Web-based survey was 43 percent – 1,086 responses.
The analysis of the responses resulted in one observation:
   •   Awareness and Interpretation. Out of 1,086 responses, 34 percent
       stated they were not familiar with the evaluation requirement. Of the
       722 who stated they were aware of the policy, 39 percent answered
       they did not include safety goals in their job descriptions, and 27
       percent said they did not reflect subordinate’s safety performance in
       evaluations. However, 280 respondents (39 percent of those familiar
       with the policy) stated they had held someone accountable for poor
       safety and occupational health program performance in the past year.
How It Could Be Improved?
We recommended that the Deputy Under Secretary of Defense for
Installations and Environment communicate and clarify the intent of DoD
Instruction 6055.1 to senior military and civilians of the Department, and
coordinate with the Service offices of primary responsibility, the office of the
Deputy Under Secretary of Defense for Civilian Personnel Policy, and the
Program Executive Officer, National Security Personnel System to formalize
and institutionalize completion of safety and occupational health program
management performance in supervisor performance rating systems.



                             Office of the Inspector General of the Department of Defense
                                                                  Report No. IE-2007-006
                              TABLE OF CONTENTS

Introduction                                              1
Survey and Analysis Results                               3
       Policy Review                                      3
       Observation: Policy Awareness and Interpretation   5



                                 List of Appendixes
A.     Announcement Memorandum                             8
B.     Project Process                                     9
C.     Telephone Interview Script                         11
D.     Web-Based Questionnaire                            12
E.     Acronym List                                       16
F.     Report Distribution                                17
G.     Management Comments and Evaluation Response        18
This Page Intentionally Left Blank
         Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                                Report No. IE-2007-006




Introduction
Objective. The purpose of this project was to examine compliance with the Department
of Defense (DoD) requirement to include safety and occupational health accountability in
individual performance evaluation reports. (See Appendix A)

Background. Accidents degrade DoD capabilities and readiness, costing the Department
time and money. In 2006, more than 640 Service members and civilians died as a result
of accidents. DoD spends more than $100 million for safety programs each fiscal year,
and the average cost of workers compensation claims exceeds $600 million annually. In
addition to these direct costs, estimates for annual indirect costs range between $10 and
$21 billion. 1

On July 18, 2006, the Under Secretary of Defense for Personnel and Readiness requested
the assistance of the DoD Inspector General to assess the Department’s compliance with
the requirement to include safety and occupational health performance on individual
performance reports for all Department employees.

Program Roles and Responsibilities. Authority and responsibility for the DoD safety
and occupational health (SOH) program is divided as follows within the Office of the
Secretary of Defense:
    •   Under Secretary of Defense for Acquisition, Technology, and Logistics is “the
        Principal Staff Assistant and advisor to the Secretary of Defense for all matters
        relating to … safety, and occupational health management.” The Under Secretary
        delegated responsibility to the Deputy Under Secretary of Defense for
        Installations and Environment as the Designated Agency Safety and Health
        Official. The Under Secretary also delegated program management to the
        Assistant Deputy Under Secretary of Defense for Environment, Safety, and
        Occupational Health.
    •   Under Secretary of Defense for Personnel and Readiness, in his capacity as “the
        Principal Staff Assistant and advisor to the Secretary of Defense for Total Force
        management … [will] establish safety and accident reduction activities to prevent
        accidents and injuries to military and civilian personnel … in accordance with the
        guidelines of the Defense Safety Oversight Council.” The Secretary of Defense
        designated the Under Secretary of Defense for Personnel and Readiness as the
        chair of the Defense Safety Oversight Council.



1
 Estimate from “Department of Defense: Executive Assessment of Safety and Occupational Health
Management Systems,” National Safety Council, December 6, 2001.


                                                  1
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


Authority and responsibility for civilian rating systems in DoD lies with the Deputy
Under Secretary of Defense for Civilian Personnel Policy. As of September 2007, the
National Security Personnel System (NSPS) was unique among civilian rating systems
used in DoD.
   •   The system was not fully implemented throughout the department.
   •   The Program Executive Officer reported to the Deputy Secretary of Defense.

Data Collection. To examine compliance, the assessment team reviewed DoD and
Service policy, and administered two surveys: telephonic and Web-based. The target
population for the surveys was DoD military and civilian leaders – approximately 2800
general/flag officers and members of the Senior Executive Service (SES). In addition to
the military officer / civilian division, the population is drawn from six major sub-groups:
four military services (Army, Navy, Marines, Air Force), the Joint Staff (JCS), and
Others (primarily the Office of the Secretary of Defense and Defense agencies).
Beginning on January 17, 2007, the team conducted 159 telephone interviews to validate
the survey questions (see Appendix B). Subsequently, the team sent e-mail to the entire
target population, requesting they take the Web-based version of the survey. The overall
response rate for the Web-based survey was 43 percent, netting 1,086 responses and the
basis for subsequent analysis.




                                                 2
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


Survey and Analysis Results
Policy Review
Compliant performance rating systems satisfy a multitude of laws, regulations, and
policy. Specific to safety and occupational health performance evaluation, Title 29, part
1960.11 of the Code of Federal Regulations (29 CFR 1960.11) requires:
     Each agency head shall ensure that any performance evaluation of any management
     official in charge of an establishment, any supervisory employee, or other appropriate
     management official, measures that employee's performance in meeting requirements of
     the agency occupational safety and health program, consistent with the employee's
     assigned responsibilities and authority, and taking into consideration any applicable
     regulations of the Office of Personnel Management or other appropriate authority. The
     recognition of superior performance in discharging safety and health responsibilities by
     an individual or group should be encouraged and noted.

DoD incorporates the requirement of 29 CFR 1960.11 to include safety and occupational
health performance on individual performance reports in DoD Instruction 6055.1, “Safety
and Occupational Health (SOH) Program,” August 19, 1998:
     All military (officer and enlisted) and civilian employees shall be appropriately evaluated
     on their SOH duties and responsibilities, and their personnel evaluation systems shall
     allow SOH performance to be so evaluated. Evaluations of individuals responsible for
     the management of SOH programs shall specifically include an evaluation of their SOH
     program management performance. Performance of SOH duties and responsibilities
     shall be appropriately considered in other personnel actions.

The Instruction identifies the two distinct employee populations, military and civilian.

   Military. The military population referenced is the uniformed members of the
Services. The Military Departments (Army, Navy, Air Force) develop, implement, and
supervise their own systems for rating their service members. Relevant policy differs
among the Departments, but all incorporate the 29 CFR 1960.11 requirement.

Army Regulation 623-3, “Evaluation Reporting System,” August 10, 2007, paragraph
3-4c(5)(d)(3) states that “all officers and NCOs will have a safety-related objective/task
developed as part of their support form/counseling requirements.”
Navy Bureau of Personnel Instruction 1610.10a, “Navy Performance Evaluation
System,” September 20, 2005, lists Environmental Quality and Safety among Specific
Contributions for mention for Officer Fitness Report Input (Exhibit 18-1, page 18-10).
However, the list is not prescriptive, in that “the reporting senior is the sole judge of
which items to use in the report.”
Marine Corps Order P1610.7F, “Performance Evaluation System,” May 11, 2006,
includes the “extent of fulfillment of the execution and oversight of the command's safety



                                                 3
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


policy, when applicable, but especially when MRO [Marine Reviewed Officer] is filling
an executive officer's or deputy commander's billet with their safety responsibilities” in
officer fitness reports. But it is listed in paragraph 4012, the Section titled “Reporting
Senior’s Directed and Additional Comments,” as one of 24 “other” comments available
for mention.
Air Force Instruction 36.2406, “Officer and Enlisted Evaluation Systems,” April 15,
2005, requires evaluators to “consider items listed below when assessing performance
and potential and specifically mention them in evaluation reports when appropriate.”
How commanders, managers, and supervisors discharge Occupational Safety and Health
program responsibilities is among the items listed for consideration in section 1.3.6.

   Civilian. As of September 2007, DoD civilian supervisors were rated under a
number of systems. Implementing instructions are outlined in DoD Directive 1400.25M,
“Department of Defense Civilian Personnel Manual.” Two subchapters of the directive
addressed reporting of individual performance.
   •   “Performance Appraisal System,” SC 430, “prescribes procedures, delegates
       authority, and assigns responsibility for performance management within the
       Department of Defense; and establishes the DoD Performance Appraisal System.”
   •   “Performance Management,” SC 1940, “prescribes procedures, delegates
       authority and assigns responsibility for the NSPS [National Security Personnel
       System] performance management system.”
Subchapter 430 of DoDD 1400.25M contains no explicit mention of safety. Paragraph
SC430.2.9 states that performance management programs shall “ensure the incorporation
in performance evaluations of matters required by other law, regulation, and DoD
policy.” This formulation was approved by the Office of Personnel Management on
January 31, 1996.

In 2006 the Department began implementing NSPS, with the intent to replace the prior
system for applicable DoD civilian employees. Paragraph SC1940.5.7.3 requires a
mandatory supervisory job objective for supervisors, holding “supervisors accountable
for carrying out the responsibilities outlined in the implementing issuances and
subsequent Component policy and guidance.” Safety and occupational health again are
not mentioned explicitly concerning the development of the mandatory objective. Safety
is mentioned directly in the definition of “Resource Management,” an optional
contributing factor for supervisors and employees job objectives.

All personnel systems in use in DoD passed legal review. In addition, the NSPS Program
Executive Officer obtained concurrence from the Defense Safety Oversight Council on
October 17, 2006, that the NSPS “includes safety elements for DoD managers.”



                                                 4
          Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                                 Report No. IE-2007-006




Observation: Policy Awareness and Interpretation
Performance management                 Figure 1. Senior Leader Awareness
system policy is sufficient;              Survey Question # 1: Are you aware of DoD's policy to evaluate
compliance is inadequate. Of the         supervisor performance of safety and health program management?
1,086 senior leaders responding         Organization         Count         Yes to Q1       Percent "YES"
to the Web-based survey,                   Air Force           253             164              65%
                                             Army              415             318              77%
Figure 1 shows that more than                 JCS               13               6              46%
one third stated they were not             Marines              37              29              78%
                                             Navy             178              108              61%
aware of DoD’s policy to                     Other             190              97              51%
evaluate supervisor performance             TOTAL             1086
                                        TOTAL "YES"                            722              66%
of safety and occupational health       TOTAL "NO"                             364              34%
program management (survey
question 1). We believe that senior leaders remain unaware of the policy because the
requirement is not provided sufficient importance in the Service and civilian personnel
rating systems. It is reasonable to conclude that the lack of awareness impacts DoD’s
goal for full compliance.

More than 95 percent of the 1,086 senior leaders responded that “their subordinates place
an emphasis on safety” (survey question 2). This result requires no additional comment.

Further analysis of the 722 senior leaders who stated they were aware of the policy is
shown in Figure 2. Awareness did not translate to compliance. When asked if safety
 Figure 2. Policy Interpretation
  Calculations based on the 722 "Yes" Survey Question # 3: Are safety goals        Survey Question # 4: Do you reflect
 responses to survey Question # 1 (see and objectives included in the description your subordinates’ safety performance in
                below).                             of your duties?                          their evaluations?
  Organization        "Yes" to Q1         "No" to Q3           Percent "No"          "No" to Q4          Percent "No"
    Air Force            164                 77                    47%                  44                   27%
      Army               318                 72                    23%                  55                   17%
       JCS                 6                  5                    83%                   3                   50%
    Marines               29                 16                    55%                  11                   38%
      Navy               108                 44                    41%                  31                   29%
      Other               97                 64                    66%                  48                   49%
  TOTAL "NO"                                 278                   39%                  192                  27%

goals and objectives were included in their job description (survey question 3), 39 percent
responded they were not. Also, 27 percent responded that they were not reflecting safety
performance in their subordinate’s performance evaluations (survey question 4).
Responses varied across major Components, with the Office of Secretary of Defense
Staff and Defense agencies (Other) displaying the lowest rate.




                                                           5
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


On a positive note, as shown in Figure 3, almost 40 percent of the senior management
respondents stated that they held people accountable for poor performance in safety and
health program management over the past year (survey question 5). The assessment team
did not sample individual performance rating reports to validate survey responses to
question 5 (see Appendix B).
             Figure 3. Policy Implementation
               Calculations based on the 722 "Yes"    Survey Question # 5: Did you hold anyone
              responses to survey Question # 1 (see   accountable for poor performance in safety &
                             below).                  health program management in the past year?

               Organization        "Yes" to Q1            "Yes" to Q5           Percent "Yes"
                 Air Force            164                     67                    41%
                   Army               318                    120                    38%
                    JCS                 6                      2                    33%
                 Marines               29                     17                    59%
                   Navy               108                     47                    44%
                   Other               97                     27                    28%
               TOTAL "YES"                                   280                    39%



Management should consider options to improve awareness. Short term ways to increase
awareness include communication from the Office of the Secretary of Defense to DoD
senior leaders either directly, through normal command channels, or through technical
publications. This is likely to be effective immediately, but without lasting impact
because of the constant rotation of personnel. Inclusion of the requirement in officer and
civilian education classes (pre-command courses, executive development courses, etc.)
will likely provide a long-term solution. Another option is explicit inclusion of support
for safety and occupational health on supervisor rating forms.

We believe that the lack of specificity in DoD Instruction 6055.1 allows the Services and
other agencies to interpret the requirement differently, further contributing to non-
compliance. DoD Instruction 6055.1 states that employees shall be “appropriately”
evaluated on their safety and occupational health duties, without further defining
“appropriately.” In addition, which military commanders and civilian supervisors are
“responsible for the management of SOH [safety and occupational health] programs,” is
not adequately defined.

Settling differences in interpretation will require communication and coordination. The
Defense Safety Oversight Council is one available forum to discuss differing
interpretations and reach consensus. Council membership is sufficiently senior, including
Office of the Secretary of Defense, Joint Staff, and Service representation at the level of
Under Secretary.




                                                      6
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


 Recommendation. The Deputy Under Secretary of Defense for Installations and
 Environment should:
       1. Communicate and clarify the intent of the requirements of DoD
 Instruction 6055.1 to the Department, specifically targeting senior military and
 civilian officials.
       2. Coordinate with the Service offices of primary responsibility, the Deputy
 Under Secretary of Defense for Civilian Personnel Policy, and the Program
 Executive Officer, National Security Personnel System to formalize and
 institutionalize completion of safety and occupational health program
 management performance in supervisor performance rating systems.


If implemented, the recommendations in this report should increase awareness of
reporting requirements, highlight the importance of safety programs to all supervisors,
and facilitate compliance with 29 CFR 1960.11 and DoDI 6055.1.




                                                 7
    Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                           Report No. IE-2007-006



Appendix A – Announcement Memorandum




                                             8
         Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                                Report No. IE-2007-006




Appendix B – Project Process
Scope
Scope. We announced this project in January 2007 to review compliance with DoD
Instruction 6055.1, “Safety and Occupational Health (SOH) Program,” August 19, 1998,
(see appendix A). Specifically, we assessed whether DoD supervisors complied with the
DoD requirement to include safety and occupational health accountability in individual
performance evaluation reports. The team examined statutory and policy guidance
relating to the DoD requirement and conducted two surveys from January 2007 to
August 2007. The team did not review evaluation reports.

Methodology
Methodology. The Defense Manpower Data Center provided a database listing all DoD
general/flag officers and SES containing 2,810 entries. The team developed and
administered the survey questionnaire using telephonic interviews and Web-based access.
The team consulted with the Quantitative Methods Directorate of the Office of the
Inspector General during all steps in the process.
   Survey Questions. The telephonic interviews and Web-based survey contained the
same five questions.

       1. Are you aware of DoD’s policy to evaluate supervisor performance of safety & health
   program management?
       2. Do your subordinates place an emphasis on safety? If so, what methods do they use:
   briefings, policy letters, posters, stand-downs, or any other methods?
        3. Are safety goals and objectives included in the description of your duties?
        4. Do you reflect your subordinates’ safety performance in their evaluations?
      5. Did you hold anyone accountable for poor performance in safety & health program
   management in the past year?


    Telephonic Interview Survey. We began the survey process on January 17, 2007,
randomly selecting 267 individuals from the database with the intention of validating
survey questions using a statistically valid sample. While we eventually conducted 159
successful interviews, the high error rate of the original database did not allow for
projection of the sample to the entire population. However, it did allow us to validate the
survey questions. See Appendix C for an example of the script used for interviews.
   Web-Based Survey. We initiated the Web-based survey on February 12, 2007,
sending e-mail to the entire target population. The e-mail explained how and why the
OIG was conducting the survey, how the information would be used, why participation


                                                  9
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006


was important, and directed participants to the survey Web page. We sent two e-mail
reminders to encourage survey participation. Data collection stopped on March 5, 2007.
See Appendix D for an example of the Web-based survey.
Based on our experience with the          Figure 4. Web-based Survey Population
listing during the telephonic survey,
                                           Original Population from database      2810
we scrubbed the roster for obvious
                                               No email address                    137
errors (see figure 4). Prior to                Duplicative names                    11
dispatching the Web survey, we                 Undeliverable emails                118
                                               Other                                20
reduced the population by 286 to
                                           Total identified database errors        286
account for 137 respondents without
                                           Potential respondents                  2524
e-mail addresses, 11 with duplicate
                                           Actual respondents                     1086
names, 118 undeliverable e-mails,              Percentage                       43.0%
and 20 e-mails that were sent to
individuals who had retired or otherwise departed from their position. This resulted in a
population of 2,524 potential survey participants.

We received 1,086 valid responses from the 2,524 targeted population, for a response rate
of 43 percent. Of the valid responses, we received 722 from general/flag officers for a
64 percent response rate. We received 364 valid responses from SES for a 34 percent
response rate.

Team Members
Personnel assigned to the Office of the Inspector General, DoD, Inspections and
Evaluations Assessment contributing to this report were:
   Mr. William Morrison
   Mr. George Marquardt
   Mr. Kayode Bamgbade
   Colonel Thomas Epperson, USAR
   Dr. Sardar Hassan
   Major Linda Moschelle, USAF
   Ms. Beverly Cornish
   Ms. Susann Stephenson
   Ms. Carol Brink-Meissner
   YN1 Willie Reid, USN




                                                10
         Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                                Report No. IE-2007-006




Appendix C – Telephone Interview Script
Safety Accountability in DoD Individual Performance Reports Questionnaire     D2007-DIP0E2-0036.000
Analyst Name _______________________
Order # ______ Date 1: ______________ Date 2: ______________ Date 3: ______________
Completed        Refused        Unavailable (Circle One)
Introduction: My name is ___________ and I am an analyst with the Office of the Inspector General
at DoD. Dr. Chu, the Under Secretary Of Defense for Personnel & Readiness, requested an
assessment of Safety Accountability in Performance Reports.
I have five questions that will take less than five minutes to complete. This survey is crucial to
identify compliance with DoD policies regarding “safety as an element in performance reports”. For
this interview, I need to validate your demographics. Please be assured your responses will be kept
anonymous and will not be matched to your demographics.
Your organization is: Army Navy Marine Air Force JCS OSD ANG ArNG
Other Defense (specify) ___________ (DFAS, DISA, DLA, etc.)
And your grade is (SES or O-7/8/9/10) _______ is that correct?
What is your current title? ________________________________________________________
Please answer the following five questions with either Yes, No, or I Don’t Know.
                                                                  Don’t
      Web-based Questionnaire                    YES      NO                       COMMENTS
                                                                  Know

 1. Are you aware of DoD’s policy to
 evaluate supervisor performance of safety &
 health program management?
 2. Do your subordinates place an emphasis                                  Which of methods do they use:
 on safety?                                                                  briefings ,
                                                                             policy letters ,
                                                                             posters ,
                                                                             safety stand-down day ,
                                                                             other     (please explain)

 3. Are safety goals and objectives included
 in the description of your duties?
 4. Do you reflect your subordinates’ safety
 performance in their evaluations?

 5. Did you hold anyone accountable for
 poor performance in safety & health
 program management in the past year?

CLOSING: “Thank you for your valuable time. That’s all I have” or “Thank you Sir/Ma’am.”
For Persistent Comments:
    1. I’m sorry, I can’t provide any additional information, I can only go through the questionnaire.
    2. You will be receiving a Web-based survey soon and you’ll be able to provide additional comments
    on that survey.
    3. I can email a copy of the announcement memo to you. Can I verify your email address?




                                                 11
       Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                              Report No. IE-2007-006




Appendix D – Web-Based Questionnaire


                     OCCUPATIONAL SAFETY & HEALTH PROGRAM 
                  ASSESSMENT OF INDIVIDUAL SAFETY PERFORMANCE 



                                 About This Questionnaire
How much time is required to complete survey? This 5-question survey takes less than five
minutes to complete.
Why complete this survey? As requested by the Defense Safety Oversight Council (DSOC),
the DoD-IG is compiling feedback from active duty flag/general officers and SESs to assess
DoD compliance on the requirement to include safety and occupational health performance on
individual performance reports for all military and civilian employees. Your responses are
important. Our analysis of the survey responses will be presented to the DSOC.
Will my questionnaire responses be kept anonymous? Yes. Do not use any personal
names anywhere on this questionnaire.
Privacy Notice
Authority: This questionnaire is being administered by the Inspector General of the
Department of Defense under the authority of Section 1566, chapter 80 of title 10, United
States Code.
Principal Purpose: To determine compliance with the DoD policy requiring safety
accountability on individual performance plans and ratings. Results will improve the
effectiveness of the safety and health programs in DoD.
Routine Uses: None.
Disclosure: Providing information on this questionnaire is voluntary. There is no penalty if
you choose not to respond. However, maximum participation is encouraged. No identifying
information is being collected that could identify individuals. Only summary information will
be reported.
Web-based Survey Questionnaire for Safety Accountability in Individual Performance
Reports (SAIPR), Project No D2007-DIPOE2-0036
Completing This Questionnaire:
 1 This questionnaire will take no more than 5 minutes.
 2. Select answers you believe are the most appropriate and true to the best of your knowledge.
 3. Complete all questions before exiting this Web Site.
Introduction: Your responses will be used to determine compliance with DoD policy,
regarding safety as an element in performance reports. Please be assured that your response
will be kept anonymous. For the purpose of this questionnaire, we do not need your name, but
we do need your Rank/Grade level for analyzing the result by groups.




                                               12
         Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                                Report No. IE-2007-006




                         Web‐Based Questionnaire
Your Organization: 
    Army 
    Navy 
    Marine 
    Air Force 
    JCS 
    Other (e.g., OSD, Defense Agency, Field Activity, etc) 
Please Specify:
Respondent:
Rank/Grade Level:                                                           
Title:
1. Are you aware of DoD’s policy to evaluate supervisor performance of safety 
& health program management?

    Yes 
    No 
    Donʹt Know 




Comments:
2. Do your subordinates place emphasis on safety?

    Yes 
    No 
    Donʹt Know 




                                                 13
       Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                              Report No. IE-2007-006




Comments:
2a. How? (Click all that apply)

    Briefings 
    Policy letters 
    Posters  
    Safety stand‐down day 
    Other  (please explain below)




If other
3. Are safety goals and objectives included in the description of your duty?

    Yes 
    No 
    Donʹt Know 




Comments: 
4. Do you reflect your subordinates’ safety performance in their evaluations?

    Yes 
    No 
    Donʹt Know 




                                               14
      Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                             Report No. IE-2007-006




Comments:
5. Did you hold anyone accountable for poor performance in safety & health 
program management in the past year?

   Yes 
   No 
   Donʹt Know 




Comments:

                                              Clear Answ ers
                                           




                                                 15
       Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                              Report No. IE-2007-006




Appendix E – Acronym List

CFR               Code of Federal Regulations
DoD               Department of Defense
DoD OIG           Department of Defense Office of the Inspector General
DSOC              Defense Safety Oversight Council
JCS               Joint Chiefs of Staff
NSPS              National Security Personnel System
OSD               Office of the Secretary of Defense
SES               Senior Executive Service
SOH               Safety and Occupational Health




                                               16
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006




Appendix F – Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics*
Under Secretary of Defense (Comptroller)/Chief Financial Officer
Under Secretary of Defense for Personnel and Readiness*
Assistant Secretary of Defense (Legislative Affairs)
Assistant Secretary of Defense (Public Affairs)
Director, National Security Personnel System Program Executive Office*
Department of the Army
Assistant Secretary of the Army for Manpower and Reserve Affairs
Inspector General, Department of the Army
Department of the Navy
Assistant Secretary of the Navy for Manpower and Reserve Affairs
Naval Inspector General
Deputy Naval Inspector General for Marine Corps Matters
Department of the Air Force
Assistant Secretary of the Air Force for Manpower and Reserve Affiars
Inspector General, Department of the Air Force
Congressional Committees
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Defense, Committee on Appropriations




* Denotes recipient of the draft report.




                                                17
        Safety and Occupational Health Accountability In DoD Individual Performance Evaluation Reports
                                                                               Report No. IE-2007-006




Appendix G – Management Comments and Evaluation
Response

In August 2007, the IG assessment team provided stakeholders with a draft report and
requested management comments. Management provided formal and informal comments
in September 2007.

   Under Secretary of Defense for Personnel and Readiness. The USD (P&R)
provided a formal response concurring with report recommendations.

    Under Secretary of Defense for Acquisition, Technology, and Logistics. The
Deputy Under Secretary of Defense for Installations and Environment provided informal
comments including technical corrections and editorial changes to stated facts. The IG
assessment team verified and accepted valid changes that improved concepts.
USD(AT&L) was preparing formal comments, but they were not complete at the report
publication date. Once received, formal comments will be included in project
documentation.

    Program Executive Officer, National Security Personnel System. In August,
2007 the IG assessment team met with the Program Executive Officer to discuss draft
findings. As a result of information provided, the IG assessment team replaced a draft
finding and recommendation addressing NSPS with an expanded discussion of
department policy outlining compliance with 29 CFR 1960.11. Subsequently, the
Program Executive Officer provided informal comments stating that the report should not
distinguish NSPS from other civilian personnel rating systems. The IG assessment team
disagreed, but modified the report to more clearly explain the uniqueness of NSPS.

Copies of management comments were not included in the final report, but are available
on request.




                                                18
                           DEPARTMENT OF DEFENSE
                          OFFICE OF INSPECTOR GENERAL




                                MISSION STATEMENT




The Office of the Inspector General promotes integrity, accountability, and improvement of
          Department of Defense personnel, programs and operations to support
                  the Department's mission and to serve the public interest.




                                                                                             D E PA R T M E N T O F D E F E N S E
                                                                                                                                    To report fraud, waste, mismanagement, and abuse of authority.


                                                                                             hot line                               Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                                    Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
Report No. IE-2007-006        September 28, 2007




      Safety and Occupational Health Accountability
                    In DoD Individual
             Performance Evaluation Reports
